Audit Report
COMPUTER SECURITY AT THE
DRUG ENFORCEMENT ADMINISTRATION
Audit Report 97-14, (3/97)
TABLE OF CONTENTS
EXECUTIVE SUMMARY
FINDINGS AND
RECOMMENDATIONS
I. SYSTEM SOFTWARE CONTROLS
Default Settings
Audit Trails
II. COMPUTER SECURITY
MANAGEMENT
Personnel Security
Controls
Individual Access
Controls
Administrative
Security Controls
Risk Management
Physical and
Environmental Security Controls
III. SECURITY
SOFTWARE
STATEMENT ON INTERNAL
CONTROLS
STATEMENT ON COMPLIANCE
WITH LAWS AND REGULATIONS
APPENDIX I - Objectives, Scope
and Methodology, and Background
APPENDIX II - Locations
Reviewed
APPENDIX III - DEA Comments
on the Audit Recommendations
APPENDIX IV - Office of the
Inspector General, Audit Division Analysis and Summary of Actions
Taken to Close Report
EXECUTIVE SUMMARY
Computer security was reported by the Attorney General to the
President in 1995 as a high risk area for six Department of
Justice components, including the Drug Enforcement Administration
(DEA). We found computer security continues to be a high risk at
the DEA, as we found in 1989 and the General Accounting Office
found in 1992. Our current audit found that:
 Computer default settings and audit trails were not
implemented effectively to protect DEA's sensitive computer
resources and to detect unauthorized access.
 Computer security management was inadequate
because: (1) personnel were not properly cleared, authorized,
and trained for access to sensitive computer resources; (2)
computer equipment was not properly controlled and
safeguarded; (3) risk analyses and contingency plans were not
always performed and tested; and (4) visitor access and lock
combination change procedures were inadequate to restrict
access to sensitive resources.
 Computer security software was not fully utilized
to detect and investigate unauthorized access to DEA's
sensitive data base applications processed at the Justice
Data Center.
Collectively, these weaknesses substantially increase the
risks of unauthorized disclosure of sensitive information. These
matters are discussed in the findings and recommendations section
of the report. Our objectives, scope and methodology, and
background information are contained in Appendix I of the report.
#####